            OFFICE OF
     THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
   REGIONAL OFFICE PROCEDURES FOR
    ADDRESSING EMPLOYEE-RELATED
       ALLEGATIONS IN REGION IX

     May 2004       A-09-04-14014




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       SOCIAL SECURITY

MEMORANDUM

Date:   May 17, 2004                                                            Refer To:

To:     Peter D. Spencer
        Regional Commissioner
         San Francisco

From:   Assistant Inspector General
         for Audit

Subject: The Social Security Administration’s Regional Office Procedures for Addressing
        Employee-Related Allegations in Region IX (A-09-04-14014)


        OBJECTIVE

        Our objectives were to evaluate the adequacy of the Social Security Administration’s
        (SSA) policies and procedures in Region IX for addressing employee-related
        allegations, determining if SSA complied with these policies and procedures, and
        determining whether SSA referred all employee-related allegations, as appropriate,
        to the Office of the Inspector General (OIG).

        BACKGROUND
        SSA receives various types of allegations related to its programs, the misuse of Social
        Security numbers, and employee conduct. Some examples of employee-related
        allegations include standards of conduct, ethics violations, and theft of Government
        property. SSA receives allegations from a number of sources, including employees,
        OIG, and the general public. Allegations concerning SSA employees are significant
        because of the potential dollar losses to SSA’s programs and the corresponding
        negative public impact. In determining the validity of allegations, SSA is required to
        obtain sufficient evidence to support or remove suspicion that criminal violations may
        have been committed.1 SSA’s procedures state,




        1
            Program Operations Manual System (POMS), section GN 04110.010(A).
Page 2 - Peter D. Spencer

         Prior to referral to the Office of the Inspector General, Office of
         Investigations Field Division, each potential violation and allegation
         must be developed by the field office, processing center, or other SSA
         office to the point where enough evidence has been secured to either
         remove suspicion or substantiate the violation.2

In the San Francisco Region, the Office of the Regional Commissioner (ORC) receives
and reviews employee-related allegations from all sources. ORC must forward any
cases involving potential fraud to OIG, Office of Investigations (OI). Otherwise, ORC
forwards service issues to the applicable area office and program issues to the
applicable field office. The Center for Security and Integrity (CSI) also receives
employee-related allegations and forwards such allegations to OIG or the applicable
area or field office. The Center for Human Resources (CHR) processes adverse
actions for any substantiated cases involving employee misconduct.

In Calendar Years (CY) 2001 and 2002, ORC received 66 employee-related allegations.
Of this amount, ORC received 62 allegations from OIG and 4 allegations from other
sources. In addition, CHR processed 33 adverse actions involving allegations of
employee fraud, criminal conduct, false statements, credit card misuse, security
violations, and/or misuse of Government property.

RESULTS OF REVIEW
Our review disclosed that the San Francisco Regional Office (SFRO) generally
(1) addressed employee-related allegations of mismanagement and (2) referred
potential criminal violations to OIG as required. However, we identified five areas where
SFRO could improve its policies and procedures over the handling of employee-related
allegations. Specifically, SFRO needs to strengthen its referrals to OIG, documentation
and distribution of procedures, receipt and control of allegations, time requirements to
complete referrals, and sufficiency and reliability of evidence.

REFERRALS TO THE OFFICE OF THE INSPECTOR GENERAL

SSA’s procedures require the Agency to contact OI before initiating any administrative
or disciplinary action against an employee suspected of committing a violation to avoid
prejudicing a possible criminal action against the employee, alert other possible
suspects, or cause a suspect or witness to stop cooperating in the investigation.3
Employee violations include situations in which an employee is suspected of willfully
participating in the planning or execution of any scheme or other activity under which a



2
    POMS, section GN 04110.010(B).
3
    POMS, section GN 04112.010(A)(B).
Page 3 - Peter D. Spencer

financial or other advantage improperly accrues or could accrue to any person at the
expense of the Government.4

SFRO generally ensured that allegations of criminal violations were referred for
investigation. Of the 33 adverse actions processed by CHR, we identified 6 potential
criminal violations. SSA referred two cases to OI and contacted OI on three additional
cases. However, in one case, an SSA employee forged medical documents to receive
$13,981 in paid leave benefits to which he was not entitled. SSA terminated the
employee without contacting OI. CHR was unable to adequately explain why it had
not referred the case to OIG. Nevertheless, OI informed us this case should have
been referred for investigation. SFRO needs to promptly refer all employee-related
allegations involving potential criminal violations to OIG.

DOCUMENTATION AND DISTRIBUTION OF PROCEDURES

SSA’s procedures require the Agency to meet documentation standards to ensure that
adequate and proper records are made and preserved. Specifically, these standards
state that SSA’s programs, policies, and procedures are to be adequately documented
in its directives.5

SFRO did not formally document its procedures for addressing employee-related
allegations and distribute these procedures to individuals involved in resolving the
allegations. We found that SFRO relied on ORC and CSI to determine whether
allegations of mismanagement should be forwarded to OI or the applicable area or
field offices for review. In CYs 2001 and 2002, ORC received 66 employee-related
allegations. SFRO should establish written policies and procedures to provide
additional assurance that individuals responsible for addressing allegations of
mismanagement take appropriate action in a timely and consistent manner.

RECEIPT AND CONTROL OF ALLEGATIONS

SSA’s procedures require the Agency to preserve records that (1) adequately and
properly document the organization, functions, policies, decisions, procedures, and
essential transactions of the Agency and (2) protect the legal and financial rights of
the Government and persons directly affected by its activities.6 In addition, SSA’s
procedures require that control logs be retained for a 2-year period.7


4
    POMS, section GN 04112.005(D).
5
 Administrative Instructions Manual System (AIMS), Records Management Handbook, SSA Records
Retention and Disposition Program, chapter 01.06.
6
  AIMS, Records Management Handbook, SSA Records Retention and Disposition Program,
chapter 01.02.
7
    AIMS, Operational and Administrative Records, CMS 02.01.00.
Page 4 - Peter D. Spencer

SFRO did not retain any records for 5 of the 66 referrals. This occurred, in part,
because ORC and CSI did not maintain a log to track the receipt and disposition of all
referrals. Although OIG had referred the five cases, ORC did not maintain records for
these referrals. In addition, the applicable area or field offices could not verify receipt
of the referrals. During our review, we requested ORC to follow up on the five cases.
Based on the information provided, we concluded these allegations had been
addressed. For CYs 2001 and 2002, we were unable to determine the number of
allegations received by CSI because it did not maintain records. Therefore, SFRO
should improve its receipt and control over all referrals.

TIME REQUIREMENTS TO COMPLETE REFERRALS

OIG refers all allegations to SSA via e-mail. These referrals state that SSA should
provide a response within 90 days to explain what action was taken on the allegation
and report any monetary recoveries or savings realized as a result of the allegation.

SFRO generally completed its referrals in a timely manner. However, we identified
two cases where ORC did not respond to OIG within 90 days as required. These
cases were not completed until 116 and 126 days, respectively. We recognize
that some referrals may require an extended period of time to close the allegation.
Nevertheless, SFRO should establish and monitor time frames for reviewing and
resolving employee-related allegations to ensure they are addressed as expeditiously
as possible.

SUFFICIENCY AND RELIABILITY OF EVIDENCE

SSA’s procedures require the Agency to develop each potential violation and allegation.
Before referral to OIG, sufficient evidence must be secured to either remove suspicion
or substantiate the violation.8 In addition, SSA’s procedures require that service area
information and referral files be retained for a 2-year period.9

SFRO did not obtain sufficient evidence to close 1 of the 66 referrals. Specifically, we
identified one case involving an allegation that benefit payments were negotiated by an
unauthorized individual because an SSA employee did not change the beneficiary’s
address. Our review disclosed that ORC and the applicable field office did not maintain
any documentation to support whether the allegation had been addressed or resolved.
SFRO should ensure that sufficient and reliable evidence is obtained before any
employee-related allegations are closed.




8
    POMS, section GN 04110.010(B).
9
    AIMS, Operational and Administrative Records, COM 01.05.02.
Page 5 - Peter D. Spencer

CONCLUSIONS AND RECOMMENDATIONS
Generally, SFRO addressed employee-related allegations and referred potential
criminal violations to OIG. Nevertheless, we identified five areas where SFRO could
improve its handling of employee-related allegations. Specifically, SFRO needs to
strengthen its referrals to OIG, documentation and distribution of procedures, receipt
and control of allegations, time requirements to complete referrals, and sufficiency and
reliability of evidence. Therefore, we recommend SFRO:

1. Ensure all employee-related allegations involving potential criminal violations are
   referred to OIG.

2. Develop and distribute written procedures to provide additional assurance that
   individuals responsible for addressing allegations of mismanagement take
   appropriate action.

3. Ensure ORC and CSI improve the receipt, control, and disposition of all referrals.

4. Establish and monitor time frames for reviewing and resolving employee-related
   allegations to ensure they are addressed as expeditiously as possible.

5. Ensure sufficient and reliable evidence is properly obtained and documented before
   any employee-related allegations are closed.

AGENCY COMMENTS
SSA agreed with all of our recommendations. See Appendix C for the text of SSA’s
comments.




                                            S
                                            Steven L. Schaeffer
                                Appendices
Appendix A – Acronyms

Appendix B – Scope and Methodology

Appendix C – Agency Comments

Appendix D – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
AIMS       Administrative Instructions Manual System

CHR        Center for Human Resources

CSI        Center for Security and Integrity

CY         Calendar Year

OI         Office of Investigations

OIG        Office of the Inspector General

ORC        Office of the Regional Commissioner

POMS       Program Operations Manual System

SFRO       San Francisco Regional Office

SSA        Social Security Administration
                                                                      Appendix B

Scope and Methodology
Our audit covered the period of January 1, 2001 through December 31, 2002. We
limited our review to the employee-related allegations received by the Office of the
Regional Commissioner (ORC) and adverse actions processed by the Center for
Human Resources (CHR) during this period. To accomplish our objectives, we:

•   reviewed the applicable Federal laws, regulations and Social Security Administration
    (SSA) policy, including SSA Administrative Instructions Manual System and Program
    Operations Manual System;

•   interviewed SSA employees from ORC, CHR, and Center for Security and Integrity
    in Region IX;

•   evaluated SSA’s policies and procedures for addressing employee-related
    allegations in Region IX;

•   obtained a database of allegations received by the Office of the Inspector General
    (OIG) in Calendar Years (CY) 2001 and 2002 to identify the universe of
    employee-related allegations in Region IX;

•   reviewed 62 employee-related allegations received by ORC from the OIG in
    CYs 2001 and 2002;

•   obtained and reviewed four employee-related allegations received by ORC from
    other sources in CYs 2001 and 2002;

•   obtained and reviewed 33 adverse actions processed by CHR involving allegations
    of employee fraud, criminal conduct, false statements, credit card misuse, security
    violations, or misuse of Government property in CYs 2001 and 2002;

•   reviewed the supporting documentation and development of evidence for the
    employee-related allegations and adverse actions; and

•   determined whether employee-related allegations involving potential criminal
    violations were referred to the OIG.

We performed our field work in Richmond, California, between June and
December 2003. We determined the computerized data used were sufficiently reliable
to meet our audit objectives. The entity audited was the San Francisco Regional Office
within the Office of the Deputy Commissioner for Operations. We conducted our audit
in accordance with generally accepted government auditing standards.
                  Appendix C

Agency Comments
                                      SOCIAL SECURITY

MEMORANDUM

Date:   May 5, 2004                                                      Refer To:

To:     Steven L. Schaeffer
        Assistant Inspector General
        for Audit

From:   Regional Commissioner
        San Francisco

Subject: The Social Security Administration’s Regional Office Procedures for Addressing
        Employee-Related Allegations in Region IX (A-09-04-14014)—REPLY


        We appreciate the opportunity to review and comment on this draft audit report. We are
        pleased that you concluded that Region IX “generally addressed employee-related
        allegations of mismanagement and referred criminal violations to OIG as required.” You
        had five audit recommendations. We will ensure that the concerns expressed by your
        audit staff are addressed as expeditiously as possible.

        Attached is a copy of our comments on each recommendation in the OIG Draft Report,
        “Regional Office Procedures for Addressing Employee-Related Allegations in
        Region IX” (Audit No. A-09-04-14014).

        If you wish to discuss our comments you may telephone me at 510-970-8400 or
        contact Patrick Sheehan, Assistant Regional Commissioner, Management and
        Operations Support, at (510) 970-8389.



                                                            /s/
                                                      Peter D. Spencer

        Attachment
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“REGIONAL OFFICE PROCEDURES FOR ADDRESSING EMPLOYEE-
RELATED ALLEGATIONS IN REGION IX” (A-09-04-14014)

Our comments on the specific recommendations follow:

Recommendation 1

Ensure all employee-related allegations involving potential criminal violations are
referred to OIG.

San Francisco Region Comment

The San Francisco Region agrees that all employee-related allegations involving
potential criminal violations should be referred to the Office of the Inspector
General (OIG). In POMS GN 04112, the Social Security Administration reminds
employees of their obligation to promptly report suspected or alleged employee
violations to OIG. Our responses to recommendations 2 through 5 demonstrate
our ongoing commitment to comply with this recommendation.

Recommendation 2

Develop and distribute written procedures to provide additional assurances that
individuals responsible for addressing allegations of mismanagement take
appropriate action.

San Francisco Region Comment

The San Francisco Region agrees that procedures for developing employee-
related violation cases are not in POMS. The Office of the Regional
Commissioner (ORC), the Center for Security and Integrity (CSI) and the Center
for Human Resources (CHR) staffs are drafting written procedures for
management personnel and staff to clearly define the responsibilities. We plan to
distribute the written procedures by June 30, 2004.




                                           C-1
Recommendation 3

Ensure ORC and CSI improve receipt, control, and disposition of all referrals.

San Francisco Region Comment

The San Francisco Region agrees with this recommendation. The written
procedures referenced in the response to Recommendation 2 will include
individual databases for the ORC, CSI and CHR staffs to assist with processing
employee-related violation cases.

Recommendation 4

Establish and monitor time frames for reviewing and resolving employee-related
allegations to ensure they are addressed as expeditiously as possible.

San Francisco Region Comment

The San Francisco Region agrees with this recommendation. The written
procedures referenced in the response to Recommendation 2 will include follow
up instructions on pending employee-related violations.

Recommendation 5

Ensure sufficient and reliable evidence is properly obtained and documented
before any employee-related allegations are closed.

San Francisco Region Comment

The San Francisco Region agrees with this recommendation. The CSI and CHR
staffs will continue to work with management personnel to completely develop
potential employee-related violations.




                                           C-2
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   James Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments
In addition to those named above:

    Joseph I. Robleto, Audit Manager

    Daniel L. Hoy, Auditor

    Brennan Kraje, Statistician

    Annette DeRito, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-09-04-14014.
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                       Overview of the Office of the Inspector General


                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
